IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA,
Petitioner,
Vv.
IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.
Respondents,

CERTIFICATE OF PAGE LIMIT

I, George Thomas Lyons, III, counsel for the respondents RPM International
Inc. and Rust-Oleum Corporation (collectively, “Respondents”), hereby certify that
pursuant to Rule 33.2(b) of the Rules of this Court the accompanying Brief of
Respondents RPM International Inc., Rust-Oleum Corporation contains less than
the page limit proscribed by the Rules of this Court, excluding the parts of the
document that are exempted by Rule 33.1(d) through Rule 33.2(b). This certificate
was prepared in reliance on the word processing system (Microsoft Word) used to
prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.

August 25, 2020

 

300 South Wacker Drive
Chicago, IL 60606

(312) 913-0001

Counsel for Respondents
